                                       STATEMENT BY

                                  EDWARD L. BLANSITT
                              DEPUTY INSPECTOR GENERAL
                            U.S. DEPARTMENT OF COMMERCE

                           BEFORE THE
      SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT,
           RESTRUCTURING AND THE DISTRICT OF COLUMBIA
              COMMITTEE ON GOVERNMENTAL AFFAIRS
                      UNITED STATES SENATE

                                         APRIL 23, 2002



Mr. Chairman and Members of the Committee, I am pleased to appear before you today to

discuss the Department of Commerce Office of Inspector General’s work and plans in

connection with the Department’s efforts to increase international compliance with trade

agreements and expand foreign market access for American exporters.



As part of a comprehensive planning process performed during the summer of 2001, the Office

of Inspector General sought to identify those areas and activities of the Department of Commerce

that we believe are most in need of our attention. Our staff conducted research on the

Department’s operating units and its primary missions, reviewing a wide range of materials

including budget requests, executive branch policy directives, legislative documents, annual

performance plans and reports, and relevant congressional testimony. Finally, we held

discussions with key Commerce officials, congressional staff, and other stakeholders to gain

additional insight into potential topics for subsequent review by our office.



                                                 1
Through this process, as reported in our September 2001 Semiannual Report to the Congress, we

identified the need to increase international compliance with trade agreements and expand

market access for American exporters as one of the top 10 management challenges facing the

Department of Commerce. We made this determination based on the fact that trade compliance

was, among other factors, a critical component of the nation’s overall trade agenda, a priority of

the Secretary, and a concern of the Congress and others.



In our efforts to address this major management challenge, we plan to undertake a series of

reviews aimed at evaluating the overall effectiveness of the Department’s activities to enforce

trade agreements and laws designed to prevent unfair trade and to help U.S. exporters overcome

trade barriers, as well as the Department’s cooperation and coordination with other U.S. agencies

working on these issues. We also plan to review specific management and operational aspects of

the International Trade Administration’s (ITA) trade compliance initiative, including plans for

new overseas compliance officers and additional country desk officers. Furthermore, we also

intend to evaluate the ITA Office of Import Administration’s efforts to enforce U.S. antidumping

and countervailing duty laws.



In March 2002, we issued our initial report dealing with ITA’s trade compliance efforts. Within

ITA, market access and compliance is handled by three units: Market Access and Compliance

(MAC), Trade Development, and the U.S. and Foreign Commercial Service (US&FCS).

The Commerce Department reorganized its international economic policy and market access

staff in July 1996 to give greater focus to market access and trade compliance issues. It created

the MAC unit within the International Trade Administration and housed a new Trade




                                                2
Compliance Center in that unit. Our review focused on the activities of ITA’s Trade Compliance

Center (TCC) in an effort to determine whether its management of the trade agreement

compliance process was efficient, effective, and responsive to client needs. Let me briefly

discuss the TCC and some of the observations contained in our report.



The TCC is now the Department’s focal point for trade compliance. It provides information

about trade agreements and helps U.S. businesses understand their rights and gain market

opportunities. The TCC’s Compliance staff is divided into five areas of expertise that are based

on technical areas in World Trade Organization (WTO) agreements, including technical barriers

to trade, intellectual property rights, dispute settlements, government procurement, and customs

valuation (See Figure 1).

     Figure 1


                                   Trade Compliance Center Organizational Chart

                                                           Trade Compliance Center


                               Compliance                                                     Monitoring & Information


     Technical Barriers to Trade        Intellectual Property Rights             Monitoring                  Information Technology Staff

         Dispute Settlements          Gov't Procurement Agreements
                                                                             Case Tracking System
    Customs Valuation Agreements                                               Outreach Support




In addition to an on-line database of trade agreements, the TCC offers web-based products such

as a complaint hotline, trade agreement “how-to” guides for businesses, and compliance or

agreement-related news and updates. The compliance and the monitoring staffs also oversee




                                                                       3
foreign compliance with trade agreements, and conduct outreach to the exporting community to

explain the Department’s compliance services. Finally, the TCC tracks and helps to resolve

company trade complaints that come to its attention. In doing so, the TCC coordinates with staff

of other federal agencies, as needed. Of equal importance is the TCC’s coordination with other

ITA staff.



At the time we did our review of the TCC, we found that prior to fiscal year 2001 its budget and

staffing had remained relatively level since its creation, except for an increase in fiscal year

1998, and a temporary funding drop in fiscal year 2000 (See Table 1).



Table 1: TCC Resources

                            FY 1997      FY 1998       FY 1999        FY 2000       FY 2001


 Budget Allocation           $1.15 M      $2.07 M        $2.05 M       $1.50 M       $1.91 M

 FTE Allocation                 17           25             25            24            30

 Actual FTEs                    17           18             19            18            24




In fiscal year 2001, ITA received a $12.8 million increase to fund a compliance initiative for

MAC and Import Administration. Of this amount, MAC received a $5.3 million increase. The

compliance initiative placed special emphasis on building expertise within Import

Administration and in MAC in order to increase attention to compliance and market access

issues related to China, Japan, and Korea.




                                                  4
We conducted our review of the TCC just as it was expanding. At that time, we found that there

was considerable confusion among ITA’s units about the mission and responsibilities of the

TCC. Thus, we evaluated how to better coordinate the compliance activities of the various ITA

units so as to avoid duplication and ensure full reporting. We also examined whether ITA’s

compliance efforts were successful at promoting adherence to trade agreements and addressing

market access problems.



Our report noted that trade agreement compliance work needs to be better coordinated within

ITA and that collaboration between ITA’s operating units should be improved. Each ITA unit

has unique areas of expertise that are important to the positive resolution of trade compliance

cases. However, we found that many staff members did not understand the role of the TCC and

thus were not effectively using its assistance in working trade compliance problems. Moreover,

we reported that organizational rivalries between the various ITA units further hindered better

collaboration, as did the lack of written guidance about the need for and importance of working

together to ensure that U.S. exporters receive complete, timely, and accurate responses to

compliance complaints. In addition, we pointed out that the TCC lacked the authority necessary

to require cooperation from the units.



We recommended a number of actions that ITA management should take to address these

problems, including the development of guidance that clearly delineates the role of the TCC and

defines the types of complaints and issues that the overseas and domestic staff from the other

ITA units should bring to the TCC’s attention.




                                                 5
After we completed our fieldwork, the TCC developed and distributed a trade compliance

manual to all ITA staff. The manual does a good job of explaining how the compliance program

works and outlining the roles of the various ITA components. At the same time, it should be

strengthened to provide more definitive criteria or guidance that staff can apply to incoming

complaints to guide them as to when to coordinate with the TCC.



Our review also identified the need for a central database of trade compliance work. The TCC

is responsible for tracking ITA-wide compliance-related activities and reporting this work

monthly to the Secretary. The TCC relies on the individual units to provide it with information

about their activities, but the various units often fail to report all of their compliance work. We

determined that there was no single database for tracking ITA-wide compliance activity, as the

units used several databases to record their own work. Therefore, we recommended that ITA

establish a central database that tracks all compliance work performed by the TCC, the U. S. and

Foreign Commercial Service’s overseas posts and domestic U.S. Export Assistance Centers,

MAC’s country desks and the TD industry experts, as well as the other parts of the Department.



ITA has advised us that it moved to a consolidated database of compliance and market access

cases in February 2002 and that the monthly compliance reports to the Secretary receive

clearance from all four of its operating units. We are encouraged by ITA’s efforts. However,

because the consolidated database is primarily used by MAC units (the country desks and the

TCC), it is still unclear how market access and compliance work performed by US&FCS and

Trade Development will be included in the database. Accordingly, we have asked ITA to look at

further consolidation of its database.




                                                 6
Our report also examined performance measures proposed by ITA for assessing the effectiveness

of its trade compliance activities and noted that although some adjustments were still needed, the

TCC complaint process has improved since the TCC began handling such matters in 1997. The

staff’s knowledge and experience have grown, and the results achieved by the compliance teams

have enhanced ITA’s efforts to increase access to foreign markets and compliance with trade

agreements


As I mentioned earlier, because of the importance of trade compliance and market access to the

success of U.S. exporters, we intend for our recently completed report to be the first in a series of

reviews to be conducted in this area. Our future reviews will focus on different aspects of ITA’s

strategy for helping companies reduce trade barriers, gain greater market access, reap the

benefits of trade agreements, and lessen the impact of unfair trade due to foreign dumping and

subsidies.


                                                                 


This concludes my prepared statement. Mr. Chairman, I would be happy to answer any

questions you or other members of the Committee may have.




                                                 7
